                     Federal Housing Finance Agency


                                 MEMORANDUM
TO:            Peter C. Emerzian
               Deputy Inspector General
               Office of Investigations

FROM:          Fred Graham
               Deputy Director
               Division of FHLBank Regulation

SUBJECT:       “FHLBank Collateral and Credit Reviews,” SIR-2013-4, OIG Case No. I-11-0011

DATE:          June 28, 2013


This memorandum responds to the memorandum dated June 17, 2013 from Inspector General
Linick to Acting Director DeMarco. That memorandum cited your Systemic Implication Report
dated June 13, 2013, which describes an investigation related to fraudulent collateral pledged by
a former member of the FHLBank of Atlanta. The memorandum also offered several
recommendations: 1) that FHFA further assess whether the FHLBanks are adequately reviewing
the assets pledged as collateral and independently test those reviews, and 2) that if indicators of
alleged fraud are detected during the course of review that both the credit and collateral
departments within the appropriate FHLBank are notified and that a Financial Instrument Fraud
Report is promptly filed. In addition, both your report and the memorandum from Inspector
General Linick stated that FHFA-OIG is available for fraud training of FHFA examiners
responsible for examining the FHLBanks.

In response to the first recommendation from your office, we reinforced to our examination staff
the importance of remaining aware of loan fraud related to FHLBank collateral; assessing
collateral reviews (including independent reviews) by the FHLBank and by examiners; and
compliance by the FHLBanks with FHFA regulation for collateral verification. We used your
Systemic Implication Report for this purpose, which provided an example of insider fraud at the
member level.

In response to the second recommendation, we will continue to apply 12 CFR 1233, Reporting of
Fraudulent Financial Instruments, toward the FHLBanks. This FHFA regulation requires each
FHLBank to report to FHFA in a timely manner the discovery that it has purchased or sold a
fraudulent loan or financial instrument, or suspects a possible fraud relating to the purchase or
sale of any loan or financial instrument. Notably, the regulation applies to fraudulent assets that
are pledged to the FHLBanks for the purpose of securing an advance. The regulation also
requires each FHLBank to have internal controls, policies, procedures, and operational training
to discover such transactions. FHFA’s Regulatory Policy Guidance, issued March 2011,
provides specific reporting guidance and describes the types of reports that a regulated entity
should submit to the Director’s designee when it discovers fraud or possible fraud. Reporting
                                                                            June 28, 2013   Page 2


related to 12 CFR 1233 is typically done by way of a Financial Instrument Fraud Report within
30 days of discovery, or an Immediate Notification within one calendar day, when a fraud or
possible fraud may involve a significant fiscal, financial or reputational impact or when a fraud
or possible fraud involves insiders.

Lastly, with respect to your offer of assistance with fraud training, we would like to extend to
your Office an invitation to participate in the December all-hands meeting of the Division of
FHLBank Regulation. While we have not yet worked out the structure of that meeting, I believe
we could create an opportunity for a representative of the Office of Investigations to address
indicators, risks, and other features of fraud to the entire Division.

We appreciate FHFA-OIG bringing this case to our attention, and we would be happy to discuss
further the report or its implications.


CC:    Bruce Crandlemire
       John Major
